   United States Department of Agriculture
   Office of Inspector General




Analysis of Massachusetts' Supplemental
Nutrition Assistance Program (SNAP)
Eligibility Data




                                             Audit Report 27002-0008-13
                                             April 2012
                           United States Department of Agriculture
                                  Office of Inspector General
                                   Washington, D.C. 20250


DATE:          April 30, 2012

AUDIT
NUMBER:        27002-0008-13

TO:            Audrey Rowe
               Administrator
               Food and Nutrition Service

ATTN:          Edward Pauley
               Acting Director
               Office of Internal Control
                 Audits and Investigations

FROM:          Gil H. Harden
               Assistant Inspector General
                 for Audit

SUBJECT:       Analysis of Massachusetts’ Supplemental Nutrition Assistance Program (SNAP)
               Eligibility Data

This report presents the results of the subject review. Your written response to the official draft
is included at the end of this report. Excerpts of your March 30, 2012, response and the Office of
Inspector General’s position are incorporated into the applicable sections of the report.

Based on your response, we have reached management decision on all of the report’s
recommendations. Please follow your internal agency procedures in forwarding final action
correspondence to the Office of the Chief Financial Officer.

Also, please note that Departmental Regulation 1720-1 requires final action to be taken within
1 year of each management decision to prevent being listed in the Department’s annual
Performance and Accountability Report.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.
Table of Contents

Executive Summary .................................................................................................1
Recommendation Summary....................................................................................2
Background and Objectives ....................................................................................3
Background...............................................................................................................3
Objectives ..................................................................................................................4
Section 1: SNAP Eligibility Oversight Needs Strengthening..............................5
   Finding 1: FNS Should Strengthen its Oversight of DTA’s Eligibility
   Review for SNAP ..................................................................................................5
         Recommendation 1 ........................................................................................7
         Recommendation 2 ........................................................................................8
Scope and Methodology...........................................................................................9
Abbreviations .........................................................................................................10
Exhibit A: Summary of Monetary Results ..........................................................11
Agency’s Response .................................................................................................13
Analysis of Massachusetts’ Supplemental Nutrition Assistance
Program (SNAP) Eligibility Data - 27002-0008-13

Executive Summary
The Food and Nutrition Service’s (FNS) Supplemental Nutrition Assistance Program (SNAP),
formerly known as the Food Stamp Program, provides monthly food assistance and nutrition for
the health and wellbeing of more than 40 million low-income individuals.1 The Office of
Inspector General (OIG) initiated this audit in May 2011 to analyze the Massachusetts SNAP
participant database to identify anomalies that may result in ineligible participants receiving
SNAP benefits.

Of the 749,121 average monthly participants in Massachusetts during FY 2010, we found
908 (.12 percent) recipients who were deceased or were using a deceased individual’s Social
Security Number (SSN), were potentially receiving duplicate benefits in Massachusetts, were
receiving benefits simultaneously from one of two nearby States, or were listed in the Electronic
Disqualified Recipient System (eDRS) as previously disqualified from receiving SNAP
benefits.2,3 We also found individuals who exceeded gross and net income limitations but
received SNAP benefits because they were “categorically eligible.”4

While Massachusetts’ Department of Transitional Assistance (DTA) has taken several steps to
safeguard against potential fraud, waste, and abuse, there is still some opportunity for
improvement. DTA, which administers SNAP, does not perform all checks necessary to ensure
SNAP benefits go only to those most eligible and in need. Specifically, it does not perform some
edit checks that would help ensure that the participant information that is entered is accurate.
Additionally, though DTA uses the Public Assistance Reporting Information System (PARIS)
database to check for duplicate enrollment across States, this system does not include all
participants nationwide because FNS does not require States to participate in PARIS or to check
for duplicate enrollment across States.5 FNS also does not require States to use the eDRS system
in all cases to ensure that applicants have not been previously disqualified from receiving SNAP
benefits.


1
  For fiscal year (FY) 2010 according to FNS’ SNAP Annual Persons Participating – Average, dated
September 1, 2011.
2
  Nearby States included New Jersey and New York.
3
  FNS maintains eDRS, which is a national internet-based application that tracks SNAP participants that have been
found guilty of intentional program violations and have been disqualified from the program.
4
  According to 7 Code of Federal Regulations (CFR) 273.2(j), dated January 1, 2011, the “categorically eligible”
program allows States to align the SNAP income and asset limits with other means-tested programs. A household is
categorically eligible for SNAP if all members receive Supplemental Security Income (SSI), general assistance
(GA), or Temporary Assistance for Needy Families (TANF) assistance or non-cash benefits or services.
 “Categorically eligible” households must meet the income and asset limits for the TANF, GA, or SSI program to be
eligible for SNAP.
5
  PARIS is a computer matching process by which the Social Security numbers of public assistance recipients are
matched against various Federal databases and those of participating States to prevent simultaneous participation in
benefit programs among States. PARIS is operated under the auspices of the Administration for Children and
Families, U.S. Department of Health and Human Services. Official PARIS website: http://www.acf.hhs.gov/paris.

                                                                           AUDIT REPORT 27002-0008-13             1
In all, the 908 participants whose eligibility should have been researched cause us to question
approximately $117,767 in benefits per month, based on the average monthly amount a recipient
receives in Massachusetts.6 With a 64 percent increase in participation since 2007, SNAP is a
rapidly growing program in Massachusetts. If DTA does not take measures to increase its
preventative and fraud detection efforts, it risks making continued payments to individuals who
are not eligible for SNAP benefits.

Recommendation Summary
FNS should require DTA to perform regular edit checks to verify that information in participant
databases is accurate. FNS also needs to require DTA to review the 908 individuals identified in
this report and determine if payments were improper and recover any improper payments as
appropriate.

Agency Response
FNS concurs with our recommendations and is actively engaged in a dialogue with regional
offices and with States regarding policies and technical assistance tools which can strengthen
integrity to an even greater extent. FNS is processing final rules that will codify the
requirements that States perform the Social Security Administration (SSA) death match, the
prisoner match, and eDRS matching prior to certification. FNS expects to publish the final rules
in June 2012. FNS also issued a November 15, 2011 policy memo reminding States of this
requirement. The State has committed to following up on the 908 individuals identified and
estimates completion by October 31, 2012.

OIG Position

OIG concurs with FNS’ response. We reached management decision on the report’s two
recommendations.




6
  Potential improper payments are based upon the average amount a recipient receives in Massachusetts each month
($129.70). We were not able to determine the actual amount because payments are calculated by household, not
individual; therefore, even if one participant is ineligible—such as a deceased participant—it is possible that other
members of the household are eligible to receive benefits at a lower amount.

2     AUDIT REPORT 27002-0008-13
Background and Objectives
Background
FNS’ SNAP program, formerly known as the Food Stamp Program, provides monthly food
assistance and nutrition for the health and wellbeing of more than 40 million low-income
individuals. Massachusetts had an average of 749,121 individuals—or 11 percent of the State’s
population—enrolled in SNAP per month during fiscal year 2010. Since 2007, the program has
grown by 64 percent. While FNS pays the full cost of recipient benefits, both FNS and the States
share the program’s administrative costs.

For enrollment and eligibility procedures, SNAP regulations at the Federal level specify minimum
guidelines, such as maximum income requirements, to be enforced by the State agencies; however,
these regulations do not establish a standardized system of internal controls at the State level. FNS’
policy is to allow State agencies the flexibility to establish control systems that meet the individual
needs of each State. For example, Federal regulations allow State agencies to determine whether or
not they will interview recipients face-to-face or on the telephone prior to granting benefits. The
majority of interviews were conducted over the telephone in 2010. DTA also has a policy in place
to waive the interview requirement for certain elderly/disabled households. Each State is also
allowed to decide how it would like to organize the administration of SNAP. Each State agency
develops and maintains its own eligibility system—including software and databases—which varies
from State to State. In Massachusetts, applicants submit documents to prove citizenship, residency,
income, and expenses. To continue in the program, participants are required to recertify their
need for SNAP benefits during a review every 6 months to 3 years, depending on the applicant’s
status.7 Participants in SNAP are approved or denied by DTA based on pre-established eligibility
requirements.

State agencies also have the primary responsibility for monitoring recipients’ compliance with
program requirements and for detecting and investigating cases of alleged intentional program
violations.8 Once applicants have submitted information, DTA performs several automated data
checks to validate selected information submitted, including SSNs. State agencies are required to
establish a system to ensure that certain prisoners do not receive benefits.9 State agencies must also
check recipient data against a national SSA database, which can be accessed using SSA’s State




7
  Participants who receive Supplemental Security Income (SSI) are certified for 3 years through the Bay State
Combined Application Project program. Participants who are aged or disabled are certified for 24 month periods.
Households with earnings need to recertify every 6 months. All other participants are certified for 12 months.
8
  An intentional program violation is defined as any act violating the Food Stamp Act, the Food Stamp Program
regulations, or any State statute for the purpose of using, presenting, transferring, acquiring, receiving, possessing,
or trafficking SNAP benefits. The definition includes any act that constitutes making a false or misleading
statement or concealing or withholding facts. 7 CFR 273.16(c), dated January 1, 2011.
9
  Public Law (PL) 105-33, Balanced Budget Act of 1997, Section 1003(a)(1), dated August 5, 1997; and
PL 114-246, the Food and Nutrition Act of 2008, Section 11(q), dated October 1, 2008.

                                                                               AUDIT REPORT 27002-0008-13                 3
Verification Exchange System (SVES), to ensure that deceased recipients do not receive
benefits.10,11 In addition, DTA, like most other agencies that administer SNAP, utilizes additional
national and State database systems to verify income and employment information provided by
applicants

Objectives

OIG initiated this audit to analyze the Massachusetts SNAP participant database to identify
anomalies that may indicate ineligible participants receiving SNAP benefits.




10
   Provided at no cost to State agencies, SVES matches data against several national databases to check for death
and SSN verification for every submitted individual. SSA’s Death Master File also checks SSNs nationwide to
search for deceased individuals.
11
   PL 105-379, An Act to Amend the Food Stamp Act of 1977, Section 1(a), dated November 12, 1998.

4     AUDIT REPORT 27002-0008-13
Section 1: SNAP Eligibility Oversight Needs Strengthening

Finding 1: FNS Should Strengthen its Oversight of DTA’s Eligibility Review
for SNAP
We found that of the 749,121 average monthly participants in Massachusetts during FY 2010,
908 (.12 percent) participants were deceased, were using a deceased individual’s SSN, were
potentially receiving duplicate benefits in Massachusetts, were receiving benefits simultaneously
from one of two nearby States, or were listed in eDRS as previously disqualified from receiving
SNAP benefits. We also found individuals who exceeded gross and net income limitations but
received SNAP benefits because they were “categorically eligible.” While DTA has taken
several steps to safeguard against potential fraud, waste, and abuse, there is some opportunity for
improvement. Specifically, DTA does not perform some edit checks that would ensure that
participant information is entered accurately. Additionally, though DTA uses the PARIS
database to check duplicate enrollment across States, this system does not include all participants
nationwide because FNS does not require States to participate in PARIS or to check for duplicate
enrollment across States. FNS also does not require States to use the eDRS system in all cases to
ensure that applicants have not been previously disqualified from receiving SNAP benefits. Not
performing these checks increases the risk of improper payments. In all, the 908 participants
whose questionable eligibility that should have been reviewed and possibly removed, continued
to receive approximately $117,767 in benefits each month.

To verify that benefits are not issued to individuals who are deceased, DTA, like all agencies
who administer SNAP, is required to compare the information in its SNAP participant database
with national SSA death information. DTA frequently runs this match using multiple SSA
databases. DTA’s policy is to consider information received from SSA databases verified upon
receipt and remove deceased participants from the program.12 However, when we used SSA’s
Death Master File to perform this check ourselves, we found that 520 current Massachusetts
SNAP participants’ SSNs were listed in SSA’s Death Master File.13 DTA reviewed 268 of the
520 results. Officials stated that participants potentially received benefits after they were
deceased because the death information may have been received but not acted upon by
caseworkers due to resource constraints. For 59 of the 268 individuals identified in our match
and reviewed by DTA, benefits were used after the client’s date of death. DTA is in the process
of researching and resolving these cases to identify any overpayments and/or fraud. DTA has
recently closed 266 of the 268 cases reviewed.

We also found 222 instances where individuals were potentially receiving SNAP benefits
simultaneously under two separate households in Massachusetts. Massachusetts reviewed a
sample of these individuals. Many of the possible duplicates in the sample were due to
caseworker or system errors. The system does notify the caseworker if a participant is active in

12
   According to Questions and Answers on the Noncitizen Eligibility and Certification Provisions Final Rule, dated
November 21, 2000, verified upon receipt means that information is not questionable, and the provider is the
primary source of the information.
13
   The SSA Death Master File is used by leading government, financial, investigative, credit reporting, and medical
research organizations as well as other industries to verify individuals who have died.

                                                                           AUDIT REPORT 27002-0008-13             5
multiple cases, however this check does not prohibit an individual from being entered into the
system more than once. In some of these instances the alert generated by this process was
overlooked. Several others reviewed involved overlapping participation due to timing issues in
removing a participant on one case and adding them to another. The remaining cases required
further review to determine the cause and to determine whether fraud or overpayments had
occurred. DTA is investigating these cases and is considering developing further edit checks to
help prevent and detect these issues in the future. Using the results of its investigation, DTA is
also planning on developing a monthly report based on these types of queries to detect potential
duplicate accounts.

DTA also had multiple instances of simultaneous enrollment with the nearby States of
New Jersey and New York. We compared SNAP enrollment between Massachusetts and these
nearby States and found that 126 individuals enrolled in the Massachusetts SNAP program were
simultaneously enrolled in one of the two nearby States for at least 3 consecutive months. Each
participant should only receive SNAP benefits from the State where the participant resides.
DTA participates in PARIS—an optional, multi-State database that stores social welfare program
participant information—and several of these instances were discovered in subsequent matches.
The PARIS match only occurs on a quarterly basis and the matches must be researched before
any person is removed, which can take time. Other instances were caused by data entry errors in
one of the States. DTA is continuing to investigate the remaining cases to determine if
overpayments occurred and if so, which State is responsible for the overpayments. Outside of
quarterly PARIS matches, DTA also attempts to determine if an individual is receiving benefits
in another State at the time of application. There is currently no system to check in real time for
simultaneous enrollment between States. It is also not mandatory for States to participate in
PARIS.

Additionally, we found 40 active participants who were previously disqualified from receiving
SNAP benefits. FNS maintains eDRS, which is a national system that tracks SNAP participants
who have been disqualified from the program due to intentional program violations. States are
required by FNS to input individuals who have been disqualified, but they are not required to
check this system before allowing a person into the program. Of these 40 participants, DTA
officials stated 22 participants were disqualified in another State and allowed into SNAP in
Massachusetts because DTA does not regularly check eDRS at enrollment. DTA is reviewing
these cases to determine what action should be taken. The remaining 18 participants were not
identified because DTA system edit checks were not functioning properly. DTA is presently
reviewing its system to correct these errors. DTA is also determining the feasibility of
incorporating an eDRS report into its data matching activities. We recommend that FNS require
States to verify that individuals have not been disqualified from SNAP prior to allowing them
into the program.

We also found 820 individuals who had been using an invalid temporary SSN for over one year.
DTA’s policy is to verify a participant’s SSN at the time of application. If they do not have an SSN,
they are allowed up to six months to provide one to DTA. For some of these cases the SSNs were
not updated in the system to the correct SSN when it was provided. For the remaining cases, DTA’s




6    AUDIT REPORT 27002-0008-13
system does not prompt workers to look into temporary SSNs that have been in the system for over
one year. DTA has reviewed these cases and is currently working on a short term clean-up of
these cases as well as developing an automated check to help reduce this problem in the future.

We identified 5 individuals who had SSNs entered in the system that did not fit the SSA scheme for
valid SSNs. DTA officials stated all of these invalid entries were due to data entry errors by
caseworkers. Because this type of error is rare and does not pose a great risk, we are not making a
recommendation at this time.

Finally, we noted that 611 households exceeded either the gross or net income limitations of the
SNAP program. For all of these cases, DTA officials stated that this was not a violation and all of
these participants fell under the “categorically eligible” program, which allows households to
participate in SNAP while exceeding the program’s thresholds for gross and/or net income
limits.

In all, the 908 participants whose eligibility should have been researched cause us to question
approximately $117,767 in benefits per month, based on the average benefit amount a recipient
receives in Massachusetts. We have forwarded these participants to DTA for further research.
Taken within the context of SNAP as a whole, our findings do not represent large monetary
sums, but they do show areas where FNS and DTA could make progress in reducing potential
improper payments. We recognize that DTA is in the process of researching and resolving many
of these issues and believe that by utilizing input edit checks and a process to check eDRS for
disqualifications, DTA can further improve its fraud detection and prevention. In addition, if
FNS mandates that all States participate in PARIS or a similar national database, States would
have a powerful resource to use in checking for—and ultimately reducing—interstate duplicate
enrollment nationwide.

Recommendation 1
Require DTA to regularly perform checks to determine whether information in participant
databases is accurate and complete.

Agency Response
To ensure participant information is accurate and complete, FNS is actively engaged in a dialogue
with regional offices and with States regarding policies and technical assistance tools which can
strengthen integrity to an even greater extent. FNS is processing final rules that will codify the
requirement that States perform the SSA death match, the prisoner match, and eDRS matching prior
to certification. This final rule is expected to be published by June 2012. DTA is expanding their
current check for duplicate participation to include all recipients. FNS also issued a policy memo
reminding States of the death and prisoner matching requirement, which went out to States on
November 15, 2011.




                                                                 AUDIT REPORT 27002-0008-13           7
OIG Position
OIG concurs with FNS’ response that a policy be issued to codify the States’ requirement to
perform these matches. We have reached management decision on this recommendation.

Recommendation 2
Require DTA to review the 908 individuals identified in this report and determine if participants
have received improper payments. Recover improper payments as appropriate.

Agency Response
FNS agrees with this recommendation and estimates completion by October 31, 2012

OIG Position
OIG concurs with FNS’ response for this recommendation and we have reached management
decision.




8    AUDIT REPORT 27002-0008-13
Scope and Methodology
We acquired data regarding the participants in the Massachusetts SNAP program for the
timeframe of April 2010 through March 2011. Massachusetts was selected because of its
proximity to New York, which we were also reviewing. We selected the timeframe of
April 2010 through March 2011 because, at the time of our audit, it was the latest information
available.

We obtained SSA’s Death Master File and extracts of key SNAP participant data from DTA
officials. We also obtained SNAP participant data from the two nearby States of New Jersey and
New York. We further obtained the March 2011 eDRS extract of disqualified SNAP individuals
from FNS and compared it to the March 2011 SNAP participant data. We analyzed these data using
Audit Command Language. Our tests were developed to identify anomalies that may result in
ineligible participants receiving SNAP benefits and to determine whether FNS provided
adequate program guidance and oversight. Our tests determined whether:

   ·   Active SNAP participants were using deceased individuals’ SSNs,
   ·   Invalid SSNs were used,
   ·   Duplicate payments were received,
   ·   Recipients were receiving benefits simultaneously from one of two nearby States, and
   ·   Individuals listed on eDRS were receiving benefits.

As appropriate, the anomalies identified were verified by DTA officials.

We reviewed public laws and FNS regulations, policies, and other controls governing the
administration of SNAP to ensure DTA complied with Federal guidelines. We evaluated reports
that resulted from reviews relating to SNAP, the Federal Manager’s Financial Integrity Report
for FY 2011, and Government Accountability Office reports. We interviewed DTA officials and
obtained an extract of the eligibility database.

We conducted our audit work with DTA in Boston, Massachusetts and FNS’ national office in
Alexandria, Virginia. We also coordinated our audit with FNS’ northeast regional office in
Boston, Massachusetts. Our audit period was May 2011 through March 2012.

We conducted this review in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                                               AUDIT REPORT 27002-0008-13        9
Abbreviations
CFR ............................. Code of Federal Regulations
DTA ............................ Department of Transitional Assistance
eDRS ........................... Electronic Disqualified Recipient System
FNS ............................. Food and Nutrition Service
FY ............................... Fiscal Year
GA............................... General Assistance
OIG ............................. Office of Inspector General
PARIS ......................... Public Assistance Reporting Information System
PL................................ Public Law
SNAP .......................... Supplemental Nutrition Assistance Program
SSA ............................. Social Security Administration
SSI............................... Supplemental Security Income
SSN ............................. Social Security Number
SVES........................... State Verification Exchange System
TNAF .......................... Temporary Assistance for Needy Families
USDA.......................... Department of Agriculture




10     AUDIT REPORT 27002-0008-13
Exhibit A: Summary of Monetary Results

FINDING RECOMMENDATION
                       DESCRIPTION                        AMOUNT         CATEGORY
NUMBER      NUMBER

                                        520 Clients
                                                           $67,444     Questioned Cost,
                                       identified on
    1                  2                                   average        Recovery
                                         the Death
                                                          per month     Recommended
                                        Master File

                                        126 Clients
                                                           $16,342     Questioned Cost,
                                      participating in
    1                  2                                   average        Recovery
                                       SNAP in MA
                                                          per month     Recommended
                                      and NJ or NY
                                        222 Clients
                                        potentially        $28,793     Questioned Cost,
    1                  2                 receiving         average        Recovery
                                         duplicate        per month     Recommended
                                      benefits in MA

                                                           $5,188      Questioned Cost,
                                      40 Clients listed
    1                  2                                   average        Recovery
                                      in eDRS system
                                                          per month     Recommended


                                                          $117,767
TOTAL:                                                    average
                                                          per month




The table above represents the $117,767 in average questioned costs per month, recovery
recommended.




                                                             AUDIT REPORT 27002-0008-13   11
12   AUDIT REPORT 27002-0008-13
Agency’s Response




                 USDA’S
      FOOD AND NUTRITION SERVICE’S
        RESPONSE TO AUDIT REPORT




                        AUDIT REPORT 27002-0008-13   13
United States
Department of    DATE:          March 30, 2012
Agriculture
                 AUDIT
Food and
Nutrition        NUMBER:        27002-0008-13
Service
                 TO:            Gil H. Harden
3101 Park                       Assistant Inspector General for Audit
Center Drive
Room 712
                 FROM:          /s/ <Jessica Shahin> (for): Audrey Rowe
Alexandria, VA
22302-1500                      Administrator
                                Food and Nutrition Service

                 SUBJECT:      Analysis of Massachusetts’ Supplemental Nutrition Assistance Program
                               (SNAP) Eligibility Data

                 This letter responds to the official draft report for audit report number 27002-0008-13,
                 Analysis of Massachusetts’ Supplemental Nutrition Assistance Program (SNAP)
                 Eligibility Data. Specifically, the Food and Nutrition Service (FNS) is responding to
                 the two recommendations in the report.

                 OIG Recommendation 1:

                 Require DTA to regularly perform checks to determine whether information in
                 participant databases is accurate and complete.

                 Food and Nutrition Service Response:

                 FNS takes program integrity very seriously. Any errors are of concern; however, FNS
                 notes that the findings in this report constitute about 0.12 percent of the Massachusetts
                 caseload suggesting that while current processes can always be improved, they are, in
                 fact, working. Pursuant to the critical importance of integrity to ensure that people in
                 need receive nutrition assistance to which they are entitled, FNS is actively engaged in
                 a dialogue with our regional offices and with States regarding policies and technical
                 assistance tools which can strengthen integrity to an even greater extent.

                 FNS already has a number of activities in place that will address the situations found in
                 this report. FNS is currently in the process of awarding a grant through the Office of
                 Management and Budget (OMB) Partnership Fund for Program Integrity. This grant
                 will fund development of a pilot clearinghouse database with information from five
                 States in the Southeast and Southwest for detecting duplicate participation in SNAP
                 and disaster SNAP (D-SNAP) across State boundaries. FNS supports the audit States
                 Alabama, Mississippi, Florida and Louisiana’s participation in the coalition of States
                 that will use grant funds from the OMB Partnership Project to develop the interstate
                 clearinghouse.
                                                                                   P age |2




Per SNAP regulations at 7 CFR 272.4(e)(1), each State agency shall establish a system to
assure that no individual participates more than once in a month, in more than one
jurisdiction, or in more than one household within the State. FNS further encourages
States to have processes in place to check data with neighboring States to prevent
duplicate participation across State lines. The Public Assistance Reporting Information
System (PARIS) is available to States as an additional tool to identify interstate duplicate
participation but it is not mandatory for States to use PARIS. Some States have
expressed concerns that the information in PARIS is not timely due to quarterly matches.
According to DTA, they will be expanding their current check for duplicate participation
to include all recipients.

FNS requires States to input individuals who have been disqualified from SNAP into the
Electronic Disqualified Recipient System (eDRS). States are currently required to check
eDRS if they suspect the client is in a disqualified status and to determine the penalty
length for a person who was found guilty of an intentional Program violation. However,
FNS has final rules in process which will require all applicants to be checked against the
eDRS system prior to certification. This final rule is expected to be published by June
2012.

Massachusetts currently uses eDRS post‐certification. Massachusetts awaits instruction
from FNS regarding broader implementation for all eligibility workers, to be
implemented by batch processing. They will implement the new provisions within 90
days of FNS instructions. FNS also has final rules in process that will codify the existing
requirement that States perform the SSA death match, expected to be published by June
2012. FNS has issued a policy memo reminding States of this requirement, which went
out to States on November 15, 2011.

DTA states that they are currently in receipt of the SSA Death Master file and are
establishing it on their eligibility system, BEACON. DTA also reports that they have
subscribed to monthly updates and will incorporate them as received. As the matches
from this file are not considered “verified on receipt,” DTA is currently exploring the
most expeditious, yet accurate method of verifying the deaths of recipients.

According to DTA, they will implement alerts to prevent or minimize problems with
facsimile SSNs and will develop alerts notifying workers of the need to replace the
facsimile as soon as they learn of the receipt of a verified SSN.

Estimated Completion Date: May 1, 2012

OIG Recommendation 2:

Require DTA to review the 908 individuals identified in this report and determine if
participants have received improper payments. Recover improper payments as
appropriate.




                              AN EQUAL OPPORTUNITY EMPLOYER
                                                                                  P age |3




Food and Nutrition Service Response:

FNS agrees with this recommendation. FNS would like to reiterate that a household is
categorically eligible for SNAP if it receives Supplemental Security Income (SSI),
general assistance (GA), Temporary Assistance for Needy Families (TANF) assistance or
non-cash benefits or services. Categorically eligible households must meet the income
and asset limits from the TANF, GA, or SSI program to be eligible for SNAP. While
categorical eligibility makes a household eligible for SNAP, the household must still
meet all other SNAP eligibility requirements and have a net income that qualifies it for a
benefit.

DTA notes with “reference to the “categorical eligibility” program in the last paragraph
on page 5 of the audit report, could be misleading: As the report correctly points out
(page 1 – footnote 4), 7 CFR 273.2(j) ‐ defines the “categorical eligibility” program ‐
allows for the eligibility of households whose gross and net income exceed the
limitations set for the SNAP program. Therefore, the 611 “categorically eligible”
households cited in this report, like 450,000 other SNAP households, are by law eligible
for the program.”

Finally, DTA notes that “Exhibit A projects $67,444 of “questioned costs” for the 520
cases that were identified on the Death Master File. As part of our preliminary
investigation, we reviewed 268 cases identified on the Death Master File. We discovered
that only 59 cases (22%) accessed their benefits. Therefore, we fully expect that the final
improper payment total will be considerably smaller.”

Estimated Completion Date: October 31, 2012




                              AN EQUAL OPPORTUNITY EMPLOYER
Informational copies of this report have been distributed to:

Government Accountability Office (1)

Office of Management and Budget (1)

Office of the Chief Financial Officer (1)
 Director, Planning and Accountability Division
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (Monday-Friday, 9:00a.m.- 3 p.m.               ED




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual's income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA's TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
